IN THE
SUPREME COURT OF THE UNITED STATES
No.

NEXUS SERVICES, INC., ET AL.
Petitioners-Applicant,
v.
DONALD LEE MORAN, ET AL.,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
Petitioners Nexus Services, Inc., Michael Donovan, Richard Moore, Mary Donne
Peters, and Michael J. Gorby, by counsel, and pursuant to Rule 13(5) of the Rules of this Court,
move this Court for an extension of time of 60 days, to and including August 9, 2019 for the
filing of a petition for a writ of certiorari to review the decision of the United States Court of
Appeals for the Fourth Circuit dated March 12, 2019 (Exhibit 1). The jurisdiction of this Court
is based on 28 U.S.C. § 1254(1).
1.

The date within which a petition for writ of certiorari would be due, if not

extended, is November 7, 2016.
2.

Counsel recognizes that this motion for extension is being submitted to the

clerk less than 10 days before the Petition for Certiorari is due, but extraordinary circumstances
exist. Because of travel, trial schedules, and various family matters, the Petitioners have just
recently conferenced and confirmed that they indeed wish to proceed with a petition for
certiorari in this Court.
1

3.

Petitioner’s lead counsel in the Court of Appeals for the Fourth Circuit is

currently engaged full-time in briefing a number of matters to the Fourth Circuit Court of
Appeals and the Supreme Court of Virginia, as well as handling a number of trial court
matters, and cannot prepare and file a proper and acceptable petition for certiorari for filing by
June 10, 2019.
4.

This case presents several substantial issues of law, among which are: Whether

the district court properly found that the Defendants were prevailing parties under 42 U.S.C. §
1988, even though the case was voluntarily dismissed under Federal Rule of Civil Procedure
41(a)(1). This decision conflicts with this Court’s rulings in Buckhannon Bd. & Care Home,
500 Inc. v. W. Va. Dep’t of Health & Human Res., 532 U.S. 598 (2001) and CRST Van
Expedited, Inc. v. E.E.O.C., 136 S. Ct. 1642 (2016).
5.

This case does not involve an award of injunctive relief nor is there any danger

that the money or property necessary to satisfy the judgment entered below will be dissipated.
Consequently, an extension of time will not prejudice Respondents.
For the foregoing reasons, petitioner hereby requests that an extension of time to and
including August 9, 2019 be granted within which Petitioners may file a petition for writ of
certiorari.
June 3, 2019
/s/ Joseph R. Pope
Joseph R. Pope
WILLIAMS MULLEN
A PROFESSIONAL CORPORATION
200 South 10th Street
P.O. Box 1320 (23219)
Richmond, Virginia 23218
Phone: (804) 420-6000
Facsimile: (804) 420-6507
Counsel for Petitioners

2

CERTIFICATE OF SERVICE
I hereby certify that on June 3, 2019, I sent one copy of the foregoing motion to
Respondent via United States mail, addressed as follows:
Carlene Booth Johnson
Perry Law Firm
262 Chellowe Road
Dillwyn, VA 23936

/s/Joseph R. Pope

3

EXHIBIT 1

